              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




    Engineering Systems and Network
   Operations Disaster Recovery Plan –


                       Audit Report




                                         September 24, 2013

Report Number IT-AR-13-007
                                                                     September 24, 2013

                                                 Engineering Systems and Network
                                               Operations Disaster Recovery Plan –


                                                           Report Number IT-AR-13-007


BACKGROUND:
U.S. Postal Service policy requires           listed alternative sites in case of a
management to develop and test                disaster; however, no plan exists that
disaster recovery plans (DRPs) and            describes how those sites would
perform business or infrastructure            become operational in a disaster. The
impact assessments for all applications.      primary alternative site is on the
These plans assist in relocating and                               and could be
restoring applications at an alternative      impacted by the same disaster.
location following a disaster. The            Management believed their recovery
alternative location should be far            procedures for the primary site were a
enough from the main site so it is not        viable DRP. Without a plan and testing,
affected by the same disaster. The            Postal Service operations and its brand
impact assessments assist                     — valued at about $102.4 million — are
management in prioritizing the site's         at risk.
disaster recovery strategies.
                                              Further, business or infrastructure
In addition, the Continuity of Operations     impact assessments were not
Plan provides for sustaining mission          completed or updated for 57 of the 71
essential functions at an alternative site.   supported applications. Without placing
Management supports 71 applications           a priority on completing these
at the                         and at sites   assessments, management would not
nationwide.                                   be able to develop an effective DRP. As
                                              a result of our audit, management
Our objective was to determine whether        created or updated 24 of 71
the                    has a DRP and          assessments and developed an action
whether the plan complies with Postal         plan to complete the remaining 33
Service policies, industry standards, and     assessments.
best practices.
                                              WHAT THE OIG RECOMMENDED:
WHAT THE OIG FOUND:                           We recommended management create
Engineering Systems and Network               and test a DRP at an alternative site that
Operations management did not                 is a sufficient distance from the
establish or periodically test a DRP for                           so that it will not be
the          that prioritized the             affected by the same disaster and to
applications that should be restored or       complete impact assessments for the
described how those prioritized               supported applications.
applications could be restored. An
outdated Continuity of Operations Plan        Link to review the entire report
September 24, 2013

MEMORANDUM FOR:            MICHAEL J. AMATO
                           VICE PRESIDENT, ENGINEERING SYSTEMS

                           DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial and Systems Accountability

SUBJECT:                   Audit Report – Engineering Systems and Network
                           Operations Disaster Recovery Plan –
                           (Report Number IT-AR-13-007)

This report presents the results of our audit of the Engineering Systems and Network
Operations Disaster Recovery Plan at the                           (Project Number
13BG002IT000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director,
Information Technology, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Engineering Systems and Network Operations                                                                                 IT-AR-13-007
 Disaster Recovery Plan -



                                                    TABLE OF CONTENTS

Introduction.................................................................................................................................... 1

Conclusion ..................................................................................................................................... 2

Preparation and Testing of Disaster Recovery Plans ............................................................. 2

Business and Infrastructure Impact Assessments .................................................................. 3

Corrective Actions Taken ............................................................................................................ 4

Recommendations ....................................................................................................................... 4

Management’s Comments .......................................................................................................... 4

Evaluation of Management’s Comments.................................................................................. 5

Appendix A: Additional Information ........................................................................................... 6

   Background ............................................................................................................................... 6

   Objective, Scope, and Methodology ..................................................................................... 6

   Prior Audit Coverage ............................................................................................................... 7

Appendix B: Other Impact ........................................................................................................... 8

Appendix C: Applications Hosted at the                                                          ................................................ 11

Appendix D: Impact Assessments Completed for Engineering -Supported Applications 12

Appendix E: Impact Assessments Not Completed ............................................................... 14

Appendix F: Impact Assessments Requiring Update ........................................................... 16

Appendix G: Management's Comments ................................................................................. 17
Engineering Systems and Network Operations                                                      IT-AR-13-007
 Disaster Recovery Plan -



Introduction

This report presents the results of our self-initiated audit of the Engineering Systems
and Network Operations Disaster Recovery Plan (DRP) –
(Project Number 13BG002IT000). Our objective was to determine whether Engineering
Systems and Network Operations at the                           has a DRP and whether the
DRP complies with U.S. Postal Service policy, industry standards,2 and best practices.3
See Appendix A for additional information about this audit.

Postal Service policy requires all major information technology (IT) sites and
organizations that use or support information resources 4 in the Postal Service to
develop a DRP. The DRP identifies key personnel and priority procedures for relocating
information systems operations to an alternative location following a major system
disruption with long-term effects. A DRP is also an information system-focused plan for
restoring the target system, applications, or computer facility infrastructure at an
alternative site after a disaster. Best practices5 and industry standards6 suggest the
alternative site be located far enough away from the primary site to reduce the likelihood
of being affected by the same disaster. In addition, routine DRP testing helps assure an
orderly transition to the alternative site. Postal Service policy tasks the installation head
with developing, maintaining, and testing the DRP.

A Continuity of Operations Plan (COOP) provides guidance for sustaining an
organization’s mission essential functions at an alternative site and performing those
functions for up to 30 days before returning to normal operations. The most recent
COOP, prepared in 2010, lists

                                                           .

Finally, Postal Service policy requires infrastructure impact assessments (IIAs) and
business impact assessments (BIAs) to complete a DRP; determine the sensitivity7 and
criticality8 of information infrastructure and applications, respectively; determine the
appropriate security requirements needed to protect the resource; and assist
management in prioritizing the recovery of these vital resources at the alternative site.
DRP documentation is required for each application.


1
2
  A mandatory requirement, code of practice or specification approved by a re cognized external standards
organization.
3
  A proven activity or process that has been successfully used by multiple enterprises.
4
  All Postal Service information assets, including information systems, hardware, software, data, applications,
telecommunications networks, computer-controlled mail processing equipment, and related resources and the
information they contain.
5
  Gartner, G00155016, Toolkit Decision Framework: Best Data Center Locations for Disaster Recovery, dated
March 2008.
6
  National Institute of Standards and Technology (NIST) Special Publication 800-34 Rev. 1, Contingency Planning
Guide for Federal Information Systems, Section 3.4.3, dated May 2010.
7
  Sensitivity determines the need to protect the confidentiality and integrity of the information.
8
  Criticality determines the need for continuous availability of the information.
                                                             1
Engineering Systems and Network Operations                                                          IT-AR-13-007
 Disaster Recovery Plan -


Engineering Systems and Network Operations at the                       are system
sponsors for 71 applications, 16 of which are at the                  as noted in
Appendix C, Table 1. The remaining 55 applications reside at other field units such as

                                                                                                     .

Conclusion

Engineering Systems and Network Operations' management did not have a DRP for the
                     or the planning documents to restore those specific applications on
the           in the event of a disaster. Management also did not prepare BIAs or IIAs for
10 of the 16 applications at the           and six of the 55 applications hosted at other
installations. For example, management did not create an IIA or a DRP for the Remote
Computer Reader to determine how, when or even if the application should be
recovered at an alternative site. Furthermore, BIAs or IIAs for 17 applications must be
updated.9 Without a BIA or IIA or timely recertification,10 an effective DRP for the
                     cannot be developed. Without a DRP, a catastrophic event could
place Postal Service operations, brand, and services — valued at about $102.4 million
— at risk.11

Preparation and Testing of Disaster Recovery Plans

Engineering Systems and Network Operations management did not have a DRP for the
                   that prioritized the applications that should be restored or a viable
disaster recovery testing program.12 Additionally, management did not have all the
planning documents that describe how to restore those prioritized applications at the
                  . Finally, management did not have DRPs describing how the
secondary alternative site in                as described in the COOP, would become
operational. Postal Service policy13 requires management to prepare a DRP for all
applications and base testing frequency on the level of criticality.

A facility security report14 prepared in 2011 for the U.S. Postal Inspection Service
reported completion of facility recovery plans, workgroup recovery plans, and
application DRP. However, the IT Artifacts Library15 and the Enterprise Information
Repository (EIR) showed that no DRPs were completed for applications at
This occurred because management believed their recovery and back-up procedures
for the primary COOP site constituted a viable DRP. While these procedures may

9
  As a result of our audit, management created or updated 24 assessments.
10
   Handbook AS-805, Information Security, Section 3.3-1, dated May 2013, states, "The BIA must be updated
periodically as required (every 1, 3, or 5 years depending on its sensitivity designation), whenever a significant
change is made to the information resource, or whenever the certification and accreditation (C&A) process is re -
initiated."
11
   IT assets are at risk of disruption longer than necessary because a DRP (and all its supporting BIAs and IIAs) has
not been developed and tested.
12
   Because a DRP did not exist, the U.S. Postal Service Office of Inspector General (OIG) could not perform testing.
13
   Handbook AS-805, Section 12.5.
14
   2011 Vulnerab ility Risk Assessment Tool (VRAT) prepared for Engineering.
15
   A document repository that contains finalized project deliverables for all technology solutions.
                                                             2
Engineering Systems and Network Operations                                                           IT-AR-13-007
 Disaster Recovery Plan -


protect against data loss in non-disaster conditions, they alone should not be
considered a viable DRP.

According to the EIR,16 management performed recovery testing for one of the 16
applications, the Electronic Maintenance Activity Reporting and Scheduling (eMARS)
system,17 in 2009. See Appendix C, Table 1 for a listing of the 16 applications at the
                  .

During our review, management developed recovery and backup procedures
                                             as a primary alternative site. However,
this                                            and could be impacted by the same
disaster.

Insufficient disaster recovery planning that does not include moving systems and
application recovery to an alternative location outside of the                   and
testing the DRP commensurate with the criticality and sensitivity of the application
places the Postal Service's operations, brand, and services at risk. Our analysis
estimates the risk to be about $102.4 million. See Appendix B for details on the
calculation of other impact.

Business and Infrastructure Impact Assessments

System sponsors19 within Engineering Systems and Network Operations did not always
ensure completion of BIAs or IIAs for their respective applications. These sponsors
must complete the EIR registration; request Corporate Information Security Office
(CISO) collaboration in completing the impact assessments; and document application
characteristics such as production environment, high-level network architectural
diagrams, and sensitive data elements needed to proceed with the impact assessment.
Management did not prepare BIAs or IIAs for 10 of 16 applications at the
          and for six of the 55 Engineering-supported applications at other locations.
Appendix C, Table 1 identifies the 16 resident applications; Appendix E, Table 3
identifies the status of the 10 resident applications for which an assessment has not
been prepared; and Appendix E, Table 4 identifies the status of the six non-resident
applications for which an assessment has not been prepared. In addition, management
did not timely update 17 applications at             and other locations as shown in
Appendix F, Table 5. See Appendix D, Table 2 for a listing of 38 completed BIAs.

Postal Service policy requires management to prepare a BIA or IIA for all applications to
determine the level of sensitivity and criticality and the information security requirements
to assist management in prioritizing the recovery of IT services. Management, however,
did not set the proper priority to complete the required BIAs or IIAs and did not stress

16
   The Postal Service’s database of record that maintains information about existing Postal Service applications,
toolsets, and data.
17
   eMARS provides inventory management for parts and labor for all plants , as well as reporting and alert capabilities
related to inventory management.
18
   For the eMARS system.
19
   Business managers with oversight (funding, development, production, and maintenance) of the applications.
                                                          3
Engineering Systems and Network Operations                                                            IT-AR-13-007
 Disaster Recovery Plan -


their importance. Without initial or updated BIAs or IIAs for applications, management
would be significantly hampered in developing an effective DRP for continuing
operations of critical applications at an alternative recovery site.

Corrective Actions Taken

Since December 4, 2012, which was during our audit, management initiated corrective
actions to create or update 24 BIAs. Thirty-eight BIAs (53.5 percent) are considered
complete and current for the 71 supported applications.20 The BIAs or IIAs for the
remaining 33 applications are in various stages of completion. See Appendix E, Tables
3 and 4 and Appendix F, Table 5 for a listing of these applications.

Recommendations

We recommend the vice president, Engineering Systems, in coordination with the vice
president, Network Operations:

1. Establish, implement, and test a disaster recovery plan for Engineering Systems and
   Network Operations in                  that is commensurate with the sensitivity of
   data, available resources, and level of risk for the applications and incorporates an
   appropriate alternative site located far enough away from the                      that
   it will not be affected by the same disaster.

2. Timely complete or update, as appropriate, business impact or infrastructure impact
   assessments for all applications supported by Engineering Systems.

Management’s Comments

Management agreed with our findings and recommendation 2 and partially agreed with
recommendation 1.

Addressing recommendation 1, management stated that the recommendation does not
take into consideration that the identified systems are off-line and have no impact on
day-to-day processing of mail. However, management intends to create and conduct
limited testing of the DRP based on updated BIAs for each of the applications.
Furthermore Network Operations will use the                 as their disaster recovery site
for the majority of the application and systems due to the high cost of implementation at
alternative testing locations. The target implementation date is May 23, 2014.

Regarding recommendation 2, management will complete or update, as appropriate,
BIAs and IIAs for applications designated as critical or business-controlled. The target
implementation date is December 20, 2013.

Management also disagreed with the $102.4 million of other impact because they
believe the OIG’s analysis and underlying methodology to calculate financial impacts
20
     We did not assess the accuracy or completeness of the BIAs. We may do this in a future review.
                                                           4
Engineering Systems and Network Operations                                  IT-AR-13-007
 Disaster Recovery Plan -


was flawed and based on one individual's opinion. Further, management claimed the
OIG never requested a team assessment of the projected recovery time.

See Appendix G for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.

Regarding recommendation 1, management asserted that the recommendation did not
take into consideration that the identified systems had no impact on mail processing.
However, this assertion is premature until a DRP based on completed BIAs and IIAs is
developed.

To address management's disagreement regarding calculation of the other impact and
the recovery period, the OIG worked with management's designated subject matter
expert to calculate other impact and management had ample opportunity during the
review to complete additional risk assessments that could further refine residual risk and
the time needed to recover operations from a catastrophic event. Management did not
provide any support that they could recover the critical applications hosted or supported
at the                    within 1 day.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                             5
Engineering Systems and Network Operations                                                     IT-AR-13-007
 Disaster Recovery Plan -



                                Appendix A: Additional Information

Background

Postal Service policy21 and generally accepted industry standards22 require all major IT
sites to develop a DRP. A DRP is an information system-focused plan designed to
restore the operability of the target system, applications, or computer facility
infrastructure at an alternative site after an emergency. The DRP identifies key
personnel and priority procedures for relocating information systems operations to an
alternative location and is activated after major system disruptions with long-term
effects.

Postal Service policy tasks the installation head to develop, maintain, and test the DRP.
The CISO Business Continuance Management group, the Information System Security
officer, and the application owner jointly determine the criticality designation by
considering the impact of the information resource on numerous effects. Finally, each
application must have DRP documentation stored in the IT Artifact Library.

Objective, Scope, and Methodology

Our objective was to determine whether Engineering Systems and Network Operations
management at the                       has a DRP and whether the plan complies with
Postal Service policies, industry standards, and best practices. We limited our audit to
the applications maintained and supported by Engineering Systems and Network
Operations at the                    .

To accomplish this objective, we interviewed on-site                program managers and
administrators to determine who was responsible for network configurations, application
data, and building services restoration and priorities for disaster recovery. We
corroborated DRP and BIA and IIA responsibilities for the                      with the
Postal Service’s CISO and Business Continuity Planning and Infrastructure Relationship
management. We determined the status of BIA and IIA based on documentation in the
IT Artifacts Library and EIR and from management’s assertions for all 71 Engineering
Systems-supported applications. Finally, we reviewed the 2011 VRAT23 responses
completed by the former Engineering Systems Installation head and the 2010 COOP.

We conducted this performance audit from October 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for

21
   Handbook AS-805, Section 12.
22
   NIST Special Publication 800-34 Rev. 1, Contingency Planning Guide for Federal Information Systems.
23
   A questionnaire used by the Inspection Service to assess facility security.
                                                         6
Engineering Systems and Network Operations                                     IT-AR-13-007
 Disaster Recovery Plan -


our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 19, 2013 and included their
comments where appropriate.

We assessed the reliability of the transactions data from the eMARS system by
interviewing the Solutions Center Business Project leader. Specifically, we discussed
with an eMARS expert the transaction types, which transactions would require manual
reentry, and how much time would be needed to enter the transactions manually if
eMars was not functional for determining other impact. We determined that the data
were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              7
Engineering Systems and Network Operations                                                          IT-AR-13-007
 Disaster Recovery Plan -



                                        Appendix B: Other Impact

            Recommendation                           Impact Category                       Amount
                  1                                    IT Security24                     $102,379,861

Computer software, networks, and data are vulnerable or at risk of loss due to disruption
of critical Postal Service operations and services longer than necessary because a DRP
was not available and tested. Figure 1 shows the risk associated with three recovery
periods.

        Figure 1. Projected IT Security Risk – Without Disaster Recovery Plan




          Source: Ponemon Institute – Cost Framework, OIG analysis.

We calculated the other impact of $102,379,861 because a DRP (and supporting BIAs
and IIAs) was not available and tested for the 16 applications at the               .
In determining the risk associated with the loss of operations at the              ,
we selected the eMARS application as a representative system because its production
servers are at the                   and it is used throughout the Postal Service.


24
  Computer software, networks, and data that are vulnerable or at risk of loss because of fraud, inappropriate or
unauthorized disclosure of sensitive data, or disruption of critical Postal Service operations and services.
                                                            8
Engineering Systems and Network Operations                                                       IT-AR-13-007
 Disaster Recovery Plan -


Through interviews with the eMARS Solutions Center Business project leader and
manager — designated by management as the point of contact and subject matter
expert for eMARS — we determined that a full functional recovery of the system at an
alternative location outside the                without a DRP may take 8 to 18
weeks. However, the 18 weeks represents the eMARS manager's worst case scenario,
while 8 weeks would be a more reasonable recovery period.

The vice president, Network Operations, stated that, in his opinion, the best case
scenario should be less than 1 day because he could quickly provide the funding and
resources needed to restore this application. No information was provided to discount
the 18-week recovery period nor was any support provided for the less than 1-day
recovery period. We were unable to find any comparable authoritative sources for a
system that provided an 'average' recovery period, so we used the 8-week recovery
period, as it represents a reasonable recovery period (in an environment without an
established or tested DRP and all associated BIAs and IIAs completed) and the eMARS
manager considers it to be the most likely outcome. As a result of this audit,
management asserted that they have taken steps to mitigate the potential loss of
functionality caused by a disaster by pursuing logistical support and equipment so the
Postal Service can use a                      as an alternative to the facility at


We worked with the eMARS manager to obtain eMARS transactional and labor cost
data to calculate the cost of not having the eMARS system available. Using the cost
framework published in a white paper25 by the Ponemon Institute, we conservatively
calculated the risk associated with the loss of functionality of the
                                      for one of the 71 supported applications as follows:

    To determine direct costs26 related to the loss of eMARS system functionality, we
     worked closely with management to develop the factors for this calculation. The
     weekly manual labor cost to process maintenance and order parts is about
     $12.8 million, or $102,379,861 for the 8-week period. We based the calculation on
     average required weekly labor hours (252,46627) and the average hourly rate for a
     maintenance worker ($50.69).28

    We did not include a probability factor in our calculations because, according to best
     practices, “when the consequences of a risk are severe, probability is misleading in
     assessing the risk's importance. A risk with catastrophic consequences is important,
     even if it is considered unlikely.”29


25
   Ponemon Institute, Understanding the Cost of Data Center Downtime: An Analysis of the Financial Impact on
Infrastructure Vulnerab ility, March 2011.
26
   An expense that can be assigned to or identified with a specific activity (Business Dictionary.com).
27
   A rounded number of hours that is the average required weekly labor for processing transactions manually
(1,770,538 transactions at 8.55556 minutes per transaction divided into 60 minutes per hour).
28
   Hourly wages rate given by management.
29
   Gartner: Use the Risk Pyramid to Assess Risk in Five Minutes, G00210317, May 2, 2011. Gartner, Inc. is the
world's leading IT research and advisory company that delivers technology-related insight to their clients.
                                                           9
Engineering Systems and Network Operations                                    IT-AR-13-007
 Disaster Recovery Plan -


We did not include the loss of               support for the other engineering applications
in the event of a disaster in the other impact calculation, although this would put
additional data at risk of loss. Our other impact calculation represents one measure of
potential exposure to the Postal Service in the event of a disaster at the
          however, this should not be considered the maximum exposure or risk to the
Postal Service.




                                             10
Engineering Systems and Network Operations                                             IT-AR-13-007
 Disaster Recovery Plan -


              Appendix C: Applications Hosted at the

Sixteen business and infrastructure applications are hosted at the                               , as
shown in Table 1.

                Table 1. Applications Hosted at the

                                               Application Name
                                   Automated Parcel Bundle Sorter Image
                          1        Controller
                          2        eMARS
                          3        Engineering Intranet
                          4        Flat Identification Code Sort
                          5        Forwarding Control System
                          6        Integrated Data System
                          7        Intelligent Mail Enterprise30
                                   KONFIG® Configuration Management II
                                   Enterprise Configuration Management
                          8        System
                                   Mail Processing Infrastructure
                          9        Workstation
                                   Next Generation Transaction
                          10       Concentrator
                                   Powered Industrial Vehicle Management
                          11       System
                          12       Remote Computer Reader
                          13       Remote Directory File Monitor
                          14       TeamTrack
                                   Technology Management Office System
                          15       (TMOS)31
                                   Web Enabled Automated Package
                                   Processing System (APPS) Processing
                                   Results Log Message (PRLM) Analysis
                          16       Tool
                     Sources: Applications program managers and system administrator
                     interviews and the EIR.




                                                   11
Engineering Systems and Network Operations                                                        IT-AR-13-007
 Disaster Recovery Plan -


       Appendix D: Impact Assessments Completed for Engineering-Supported
                                 Applications

Management has completed BIAs for 38 of 71 supported applications (Table 2). The
remaining 33 applications include 16 applications that require an initial assessment
(Appendix E, Table 3 and Table 4) and 17 applications that need updated assessments
(Appendix E, Table 5). The CISO included some applications in this list that are in the
development stage since policy32 requires a completed and approved BIA as part of the
C&A package33 before that development application moves into production. We will
update the category in any subsequent reviews or audits.

Completion of the BIAs or IIAs assists management in restoring the most essential
applications in the proper order. Many of these applications are essential for mail
processing plant operations and moving the mail.

                             Table 2. Completed Impact Assessments

 Index                                                                         Abbreviation        Completion
Number                         Application Name                                 or Acronym           Date 34
  1342       Transportation Optimization Plan and Scheduler                    TOPS                  2/11/2013
  1351       Logistics Contract Management System                              LCMS                   2/1/2013
  1360       Yard Management System                                            YMS                   4/11/2013
  2693       E-Maintenance Activity reporting and Scheduling                   eMARS                 4/22/2013
  2398       Concentration and Convoy Tracking                                 CONCON                 2/1/2013
  3062       Rail Management Information System                                RMIS                  7/19/2013
  3075       Transportation Routing Information Panel System                   TRIPS                 7/19/2013
  3108       Surface Air Management System                                     S-AMS                 5/15/2012
  3137       Postal Automated Redirection System                               PARS                  2/20/2013
  3238       Intelligent Mail Data Acquisition                                 IMDAS                 4/24/2013
  3267       National Traffic Management System                                NTMS                  4/29/2013
  3466       E-Facilities Management System                                    EFMS                  4/27/2012
             Biohazard Detection System Detection System
     3520    National Controller                                               BDSNAT                  4/27/2012
     3683    Surface Air Support System Mobile                                 SASS Mobile             3/10/2013
     3740    International Document Portal                                     IDP                     2/20/2013
     3797    External Label List System                                        ELLS                    8/13/2012
     3849    Network Operations - Help                                         NOMSHELP                7/18/2013
     3940    Mail and Image Reporting System                                   MIRS                    4/14/2011
     3941    National Air and Space System Web                                 NASSWEB                 3/14/2013
     3943    Mobile Repossession and Reassignment                              MRR                     6/28/2013
     4003    Directory Services                                                DIRSERV                 2/26/2012



32
   Handbook AS-805.
33
   A formal security analysis and management approval process that assesses residual risk before the resource is put
into production.
34
   Management initiated corrective actions to create or update 24 BIAs subsequent to the initiation of our audit on
December 4, 2012.
                                                          12
 Engineering Systems and Network Operations                                       IT-AR-13-007
  Disaster Recovery Plan -


                    Table 2. Completed Impact Assessments (Continued)

  Index                                                            Abbreviation   Completion
 Number                   Application Name                          or Acronym      Date
   4102 Enterprise Energy Management System                        EEMS            10/10/2012
   4130 Global Business System                                     GBS              4/27/2012
        Lean Six Sigma Continuous Improvement Project
   4192 Tracker                                                    INSTANTIS           5/3/2013
   4206 Intelligent Mail Enterprise                                IME               12/20/2011
   4212 Quick Test Professional                                    QTP                2/10/2012
   4268 Technology Management Office System                        TMOS               2/13/2013
        Electronic Parcel Locker Central Management
   4293 System                                                     ePLCMS            10/20/2011
   4303 Plant Scanning System                                      PSS                 3/7/2012
   4308 Move To Competitive Registration System                    MTCRS              1/31/2013
   4317 Automated Parcel Bundle Sorter Image Controller            APBS-IC             4/9/2013
   4327 Variance Modules                                           VM                 1/24/2013
   4336 Outbound Data Concentrator                                 ODC                8/23/2013
   4350 Singulation Scan Induction Unit                            SSIU               12/4/2012
   4353 Inbound Custom Data Concentrator                           IDC                 5/3/2013
   5029 ID Code Sorting Server                                     ICS-SERVER          1/3/2012
   6186 Networks Intranet                                          NI                 3/15/2013
                                                                   TEAM
   None      Team Track                                            TRACK              6/13/2013
Source: CISO and Engineering Systems status as of July 19, 2013.




                                                       13
 Engineering Systems and Network Operations                                              IT-AR-13-007
  Disaster Recovery Plan -



                       Appendix E: Impact Assessments Not Completed

 As a result of our audit, Engineering Systems and Network Operations management are
 completing the initial assessment by following the BIA or IIA process for 10 business
 and infrastructure applications that were not completed and reside at the
           KONFIG is a commercial off-the-shelf application and, along with the
 Engineering intranet, is waiting for Engineering Systems and CISO to determine the
 appropriate assessment needed. Also noted in management's comments are those
 applications slated for retirement or consolidation with another application.

            Table 3. Impact Assessments Not Completed –

  Index                                                              Abbreviation or     Management
 Number                  Application Name                                Acronym           Comment
   3208      Flat ID Code Sort                                      FICS               In process
                                                                                       In signature
   4168      Web Enabled APPS PRLM Analysis Tool                    WEBAPAT            process
   4309      Mail Processing Infrastructure Workstation             MPIW               In process
   4337      Next Generation Transaction Concentrator               NGTC               In process
   6116      Remote Computer Reader                                 RCR                In process
   None      KONFIG                                                 KONFIG             In process
                                                                                       To be
                                                                                       consolidated
   None      Remote Directory File Monitor                          RDFM               with PARS
                                                                                       To be
                                                                                       consolidated
   None      Forwarding Control System                              FCS                with PARS
                                                                    ENGINEERING        Awaiting
   None      Engineering Intranet                                   INTRANET           determination
   None      Integrated Data System                                 IDS                In process
Source: CISO and Engineering Systems s tatus as of July 19, 2013.


 Engineering Systems and Network Operations management are completing the initial
 assessment by either following the BIAs or IIA process for six business and
 infrastructure applications that were not completed and reside at sites other than the
                     (see Table 4).




                                                        14
Engineering Systems and Network Operations                                           IT-AR-13-007
 Disaster Recovery Plan -



                        Table 4. Impact Assessments Not Completed


    Index                                                  Abbreviation
   Number         Application Name                         or Acronym   Management Comment
     2718 National Directory Support System                NDSS         In process
          Vehicle Tracking Analysis and
     3074 Performance System                               VTAPS        In retirement process
          Change of Address Reporting
     3837 System                                           None         In signature process
                                                           SERVICE
    4213      Service Test                                 TEST         In retirement process
              Equipment Inventory Management                            Consolidating with
    4241      System                                       EIMS         Remedy 7
                                                                        Pending scheduling, no
    4271      Inspection Service Toolkit                   IS TOOLKIT   current funding
 Source: CISO and Engineering Systems status as of July 19, 2013.




                                                     15
 Engineering Systems and Network Operations                                             IT-AR-13-007
  Disaster Recovery Plan -


                     Appendix F: Impact Assessments Requiring Update

 BIAs and IIAs for 17 business and infrastructure applications supported by Engineering
 need to be updated.

                        Table 5. Impact Assessments Requiring Update

  Index                                                     Abbreviation   Completion   Management
 Number               Application Name                       or Acronym        Date      Comment
             Web Mail Condition Reporting                                  3/17/2009
   1339      System                                         WEB MCRS                    In process
             Distribution Table Maintenance                                4/7/2009     In signature
   1343      System                                         DTMS                        process
             Web Load Restraint Reporting                                  6/9/2010
   1344      System                                         WEBLRRS                     In retirement
   1362      Web End-of-Run                                 WEBEOR         3/31/2009    In process
             Mail Processing Equipment (MPE)                               2/7/2006
   1373      Watch                                          MPEWATCH                    In process
             Web Management Operating Data                                 2/4/2008
   1395      System                                         WEBMODS                     In process
             Web Enabled Service Standard                                  5/20/2009
   2716      Directory                                      WEB SSD                     In process
             Web Remote Encoding Center                                    8/4/2009
             Operations Analysis Database
   3221      System                                         WEBROADS                    In process
             Business Reply Mail Accounting                                4/6/2006
   3236      System                                         BRMAS                       In process
   3263      Deployment Scheduler                           EDEPLOY        7/14/2009    In process
             Mail Processing Operating Plan                                10/15/2009
   3311      System                                         MPOPS                       In process
   3327      Statis Table Support System                    STSS           3/4/2008     In process
             Powered Industrial Vehicle                                    6/22/2006
   3630      Management System                              PIVMS                       In process
             Vehicle Information Transportation                            6/1/2008
   3636      Analysis and Logistics Web                     VITAL WEB                   In process
                                                                           3/28/2006    To be
             Postal Automated Redirection                                               consolidated
   3696      System Database System                         PADS                        with PARS
   3730      Envelope Reflectance Meter III                 ERM-III        3/16/2007    In process
             Surface Air Management System -                SAMS-          5/19/2011
   3942      Alaska                                         ALASKA                      In process
Source: CISO and Engineering Systems status as of July 19, 2013.




                                                       16
Engineering Systems and Network Operations                   IT-AR-13-007
 Disaster Recovery Plan -


                         Appendix G: Management's Comments




                                             17
Engineering Systems and Network Operations        IT-AR-13-007
 Disaster Recovery Plan -




                                             18
Engineering Systems and Network Operations        IT-AR-13-007
 Disaster Recovery Plan -




                                             19
